2311 Douglas Street A
Omaha, Nebraska 68102-1214 Legal B Ee sis

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No.
EMERALD HOME CARE, INC.,

Petitioner,
v.

DEPARTMENT OF UNEMPLOYMENT ASSISTANCE,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), | certify that the PETITION FOR A WRIT OF

CERTIORARI in the above entitled case complies with the typeface requirement of Supreme

Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 7302 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

enema | Aense. 0. ooo Ondaaeb Ohl

‘My Comm. Exp. September 5, 2023

 

Notary Public

Affiant

41436
